*
k**?V

No.

0J

\ H /

f,'.

!

?fl 1

n r"’',

n
l

—r v-

V

;l_.

V\,

l
r.

IN THE
SUPREME COURT OF THE UNITED STATES

/#A/<y6>//

i

S7~'A£-.
— PETITIONER

(Your Name)
vs.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

//\

~

^yz£r2i

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Ay^eAyyyy
(Your Name)

^ a- &oJc ^3Z2
(Address)
^4

(City, State, Zip Code)

9/£
(Phone Number)

.

c

i

!

QUESTIOONS PRESENTED
1.

Why are judges corrupted in California?

2.

Why California judges are racist?

3.

Why don’t judges don’t follow laws that are on the books?

4.

Why unopposed motion are only one party and not for other party?

5.

Why did Judge Brown denied petitioner four unopposed motion to because they were

46'

unopposed?
6.

Why did judge Brown granted single unopposed motion when petitioners was not

' able to file with department number but denied four unopposed motion of petitioner?
7.

What is the opposition from respondent of Exhibit ZD when petitioner’s motion was

over 22 pages?
8.

Which of law cite please that states plaintiff can file claim Small Claims Court and

than in the Superior Court and Federal Court?
9.

Which part of laws please cite that states a default judgment that was entered in

Small Claims Court for unpaid chiropractor bill a judgment was entered in Superior
Court as well?
10. Please cit laws that states as Judge Hershey stated respondent or any one can to as
many court as possible they want for same cause of action
11. Why petitioners were not counsel representation and why it was denied by Judge
Hershey?
12. Is these prejudices not have counsel present and deny counsel?
13. Why two courts Small Claims Court and Superior Court Can make two judgment on
same cause of action for unpaid Chiropractor bill
14. How can proof of service filed 10 months before was cross complaint was filed and
why it’s within law and which part of law is there petitioners can be served before cross
complaint was file? Exhibit R cross complaint was filed field on October 3, 2015 poof of
service is January 12, 2015 either Judge Brown is under drugs such cocaine

i

methamphetamine or so or he is totally blind he was no able to see even after point out
this Judge Brown. Why Judge Brown is completely ignorant of laws is the question.
15. Why notice is appeal is untimely or later when last order'JNOV Exhibit D was
made on December 21, 2017 and notice of appeal was filed on January 17, 2018 Exhibit
E?
16. Why petitioners were denied jury trial on request?
17. Why petitioners were now allowed to bring attorney?
18. Why petitioners not allowed providing exhibits?
19. Why petitioners were not provided plaintiff exhibits?
20. Is Judge Brown blind, absent minded under drugs such as cocaine
methamphetamine that he can not see following exhibit are not right and if you
peace to together Judge Brown looks retarded, mentally and blind.
Exhibit: M, O, P were not opposed but denied he was able to zip code typed wrong in
proof of service but he could net see respondent through his attorney was not filling
opposition.
Exhibit: ZD responded through his attorney filed opposition what is the opposition was filed
Judge Brown accepted as opposition when there is no opposition. Petitioner motion was
about 22 pages and 2 fines that no opposition and what was opposed this court should
address. Not even single opposition of about pages issues sighted.
Exhibit: L Judge Brown saw that order made by Judge Brown petitioners did not obeyed
reason petitioners were not able file corrected motion with department number to extend to
file response. Motion was filed by petitioners dated selected by response conflict with
petitioners schedule who going of country and will response later. Motion did not had
department number court returned motion to extend to file response to petitioners to type
department number and file again. How did petitioner disobeyed court is the question?
Exhibit Q :

On July 1, 2016 order was made by Judge Brown to provide discovery set no

later than July 11, 2016. Did responded provide discovery response by July 11, 2016 answer

ii

no? Why respondent and his attorney records did not obey court of July 1, 2016 when he had
no reason not to provide by July 11, 2016 but provided response August 4, 2016 until
petitioner filed to dismiss complaint on July 12, 2016?
Exhibit: Y Why responded and attorney of records did not obey court order of August 10,
/
2016 responded was to provided verification via email on AugustlO, 2016 but instead it was
mailed and received on September 1, 2016? Why Judge Brown continued responded to violate
when on August 19, 2916 he made an order to send verification and the verification received
was dated July 25,2016 Exhibit Y?
Exhibit: Y Why verification is not back dated and is npt illegal to back date public records
when on August 10, 2016 order was made to email verification which court did not had on
records and petitioners also did receive see also exhibit W.
Exhibit V Why Judge Brown saw typing error of zip code as 95815 which should have 95818
but not able to see exhibit has no date and signature even after pointing in pleadings is was,
no email at the bottom of exhibit AD that he stated in order email is wrong, proof of service
exhibit R is ten months before cross complaint was filed or about three months before
complaint was filed? Was it Judge Brown under hard drugs, retarded and mentally sick?
Exhibit M motion was granted unopposed due to rejected and pending motion to extend time
to be file again with department number.
Exhibit M, O and P three motions were unopposed and they were not granted?
Exhibit AE Why proof of service was not defective when petitioner Payal Narayan was not
home 90 days prior to date stated was served and not expected to return home until after
September 25, 2016. Proof service states it was served on August 24, 2016.
court granted because it unopposed for the. Judge Brown is either under hard drugs or blind
he did not see responded did not oppose four motion and all were denied because they were
unopposed. Based on this declaration “WHERE ON THE EARTH PETEIONER WAS
SEREVED THEY WERE NOT AT HOME FROM AUGAUST 11, 2016”

iii

21. Why did department 59 Paula lied toe petitioners when she said she called phone
was disconnected she has no date, no and phone number she called? Exhibit is an
email sent inquiring about no phone call
22. Why and which part of law says only party is served court and other party ? Exhibit

ZB court document was only given to respondent’s attorney and to petitioners.
23. What is the opposition of responded wit two lines on exhibit ZD which was filed

against petitioner’s motion of 25 pages?
24. Is exhibit an oppositions to petitioners motion of 25 pages with two lines oppsoitio
and if so explain?
25. Is this violation of law to obtain default judgment of unpaid Chiropractor bill Small
Claims Court? Than filed another action in Superior Court for unpaid Chiropractor
bill?
26. Is it true as Judge Hershey stated you can go to as many court as possible to obtain

court on the same unpaid bill or on same action and sue many times as you want in
any court? Please cite law that states. Refer exhibit ZF states you can leave on the
door complaint and that’s proper service.
27. Why Small Claims Court don’t proper service as per Exhibit ZF and why it’s not

defective when it was left in the door?
28. Exhibit ZH why attorney and clerk jailed, Judge held accountable for back dating
court records and why exhibit X attorney poof records admitted it was back dated,
Exhibit U proof service it was served on August 4, 2016 and response, verification
was mailed after court of August 4, 2016 was backed dated to July 25, 2016 and US
postal service receipts notice is September 1, 2016 .
29. Why proof of service is wrong and right Exhibit H and ZI two different judicial
council forms one right to serve complaint and one is wrong and which is right of the
three proof service?
30. Exhibit J race was used why its illegal to yell in Wal-Mart about this person was

iv

arrest but City using race its nothing wrong. Is race legal to be used in hiring pratice or any
capacity use race as factor?
QUESTIONS RELATED TO OTHER PUBLIC CORRUPTION
31. Petitioner filed the complaint on 2013 and from that date until January 1, 2014
extensive pleadings were filed. Respondent filed three demurrer. Is it within the law to keep
fifing demurrer and after two unsuccessful prior demurrer?
32. Why did judge made an order to sustain the demurrer “UNOPPOSED” with no leave to
amend when opposition was filed?
33.

Why the judge did informed petitioner in the oral argument judge can not see

opposition that was filed and petitioner should stop arguing that opposition was filed?
34. What are the petitioner and other three plaintiffs’ fault when judge could not see three
oppositions were filed and one amended complaint filed eleven months ago?
34. Is it because of race, minority or incompetent at the Sacramento Superior Court judges
can not see the opposition filed in three cases of all minorities and amended complaint filed
in Afi vs. I Design case?
35. Why would judge turned around make another order after oral argument opposition
filed in all three cases was untimely after the oral argument?
36. Why couldn’t the judges made an order at fist place in three different case they were
untimely?
37.

Why did the judges made an order after oral argument and after motion filed to vacate

an order change the order untimely
a. Is it because of race of all three plaintiffs is not white minority and protected class?
b. Is it Sacramento court judges are incompetent?
c. Is it because Sacramento Superior Court running its affairs on color based of skin since
1998?
38.

On case numbers 34-2013-00138376, 34-2011-00113467 and 34- 2013-00152754

V

A

a. Petitioner filed motion to extend time to file an opposition for the reason petitioner will
out of country which was drop for clerical error while petitioner was out of country to
corrected and file again. Upon returning petitioner filed again. Upon return petitioner filed
motion to extend time an opposition SIX (6) days before the hearing date of October 2, 2 014.
Case number34-2013-00138376 was filed four days before hearing date.
b. Plaintiff also had filed motion to extend time to file an opposition, for the above reason
motion was returned for clerical error to corrected and filed again while plaintiff was out of
country . Opposition was filed four (4) days before hearing.
“THESE 3 ABOVE WERE ORDER WAS CHANGED FROM UNOPPOSED TO
UNTIMELY’
case numbers
Case Number 34-2013-00138376 third opposition was filed on October 2, 2014 hearing date
was October 6, 2014.
Case number 34-2011-00113467 second opposition was filed on October 6, 2014 hearing date
set for October 14, 2014.
Case number 34-2013-00152754 second opposition was filed on October 30, 2014 hearing
date set for November 4, 2014.
All these three case demurrer sustained without leave amend unopposed changed to
untimely after oral argument and motion to vacate the order.
Case 34-2012-0113-34712 First amended complaint filed and served on December 30, 2013.
“Defendant filed reply on February 6, 2015 after FOURTEEN (14) months late and filed
counter claim after THREE (3) years later”
Plaintiff motion to terminate amended complaint and counter elaim filed on July 3, 2015
which was unopposed denied by court. Mr. Ah reconsideration was also denied and plaintiff
expert motion to terminate and declare amend complaint and counter claim was untimely
filed set for hearing on October 30, 2015 was also denied without hearing.

vi

39. Why filing opposition on case number 34-2013-00138376 filed four days before hearing,
34-2011-00113467 filed six (6) days before hearing and 34-2013-00152754 filed five (5) d ays
hearing are UNOPPOSED AND UNTIMELY and flinging amend complaint reply after 14

<r

months and counter claim after 3 years later is timely? Why fifing 14 months and 3 years
timely and fifing before hearing date unopposed and changed to untimely?
40. Why court accepted proof of service for summons and cross complaint judicial council
form POS-030 on case number 00134712 and why it is rejected by court on case number 342011-0013467? Why judge is saying it correct? (For a reason court denied plaintiff motion
' denied)
41.

Why court accepted proof of service on case number 34-2012-00134712 when California

Judicial Council has stated form POS-030 can not be used?
42. Why court denied Mr. Afi’s motion when it is wrong to use POS-030 form?

t

43. Why court back date summons to January 13, 2015 when it was filed on February 6,
2015?
44. Why Sacramento Superior Court used fake jury panel in 1998 medical malpractice case
all jurors were from the same hospital where 16 years old Filipino boy died which included
the CEO’S wife?
City vs. Narayan
45. Why did the judge in a employment discrimination case 05AS02862/CO598138 removed
petitioners expert witness on a motion to in limine and when there was no motion before the
judge to remove the petitioners expert witness?”
46. Why the judge removed petitioner expert witness and retained city’s expert witness?
47. Why judge spoke about ARMY and IRAQ WAR” in a group employment discrimination
case?
48. What had ARMY AND IRAQ WAR had to with group employment discrimination case?
49. Why judge did not enforced standing order when city attorney made facial expression
when city attorney made facial expression which part of standing order that no should make

vii

facial expression. City attorney made facial expression and when petitioners attorney inform
this tb trial judge answer was he never saw that.
50. Why did trial judge heavily limited entire witness of petitioner?
%

51. Why did trial judge did not allow many of petitioners witness to testify in the trial?
52. Why did trial judge stop petitioners witness on the way to court to come and
testify for petitioner?
53. Why did Sacramento Superior Court never gave an assurance to petitioner and
petitioners attorney petitioner will get fair trial?
54. Why did trial judge threatened petitioners attorney with a state bar complaint with
these wordings “ DEPENDING WHAT POST TRIAL MOTION YOU ARE GOING TO FILE”
trial judge will than file state bar complain.
55. Why did Julie MacManus made a ruling on the motion to disqualify judge who was
appointed by California Judicial council and instead another judge made the ruling who was
not even appointed.
56.

Why there is no discrimination when city admitted race and ethnicity to be used in the

trial to hire future employees and the judgment is against the law?
57. Why did city used and trial judge allowed dty to use perjured testimony and documents
in the trial?
58. Is the judgment which is favor city there was discrimination by firing 5 Indian, only
Indian and entire Indian from city employment is against the law when city admitted race
should .be factor to hire future employees?
59. City had sent Ida Johnson to spy and build up case against the Indian employees why
city has been left of the hook despite it illegal conduct by city?
60.

Richard Lincoln in his declaration stated petitioner had poor and poor job
performance if petitioner had poor job performance why did city fired rest of other 4
Indian employees?
61. Why Richard Lincoln did offered petitioner Mr. Narayan summer job when

viii

cording his declaration petitioner had poor and poor job performance?
62.

City did not provided Ms. Reeds letter to FEHA and EEOC when both the agency

investigated employment discrimination case for one year or provided in the discovery
from 2002 to 2008. Ms. Reeds unsigned letter was place in city’s exhibit in 2008.
Discrimination complaint was filed in 2002. Ms. Reed denied writing the letter 5 times
in the trial. If she denied writing the letter than it was perjured document used by city
why law enforcement refused take any action on this? Is it because City for Sacramento
and Indian minority is the one affected and white?
63. Cheri Chord computer typed notes was also placed in the city binder in 2008 that
was not produce to FEHA and EEOC or in the discovery from 2002 to 2008. In cross
examination Ms. Chord stated she prepared the memo after she receive subpoena for
deposition on May 16, 2007 after close to 6 later. In her own words in her own testimony
she stated “SHE PREPARED THE MEMO BASED ON HER MEMORY AFTER SHE
FOR DEPOSITION” This is another perjured documents city used and law enforcements
have refused to investigate this crime why because city is involved and minority’s rights
are involved and not white. Is this correct?
Question
No hand written notes for 6 years behind how can she recall all the issues date, time and all
the incidents?
64. In case number 34-2013-001533355 petitioner filed motion to extend time to file
Defendant’s opposition petitioner was going out of country and will not be available for oral
argument date selected by defendant. In error petitioner did not included department
number motion was returned for corrections while plaintiff was out of country. Upon return
petitioner found out defendants motion was granted “UNOPPOSED”

IX

LIST OF PARTIES

[><j All parties appear in the caption of the case on the cover page.
[ 1

petition is as follows:

RELATED CASES

j-

TABLES OF CONTENTS
ISSUSES PRESENTED

1

BOOKS OF GUINNESS RECORDS

.3

DOUBLE STANDARD LAWS

9

COURT ORDER VIOLATION BY ATTORNEY.

18

WHERE ON THE EARH PETIOTONERS CAN BE SANCTIONED

18

LYING DEPARTMENT 59

24

OPEN PUBLIC CORRUPTION FULLY CORRUPPT JUDGE CULHANE

.26

VIOLATION OF SIXTH AMENDMENT RIGHTS.......................................

.27

MORAL TURPITUDE

,31

VIOLATION OF FIFTH AMENDMENT RIGHTS

.33

VIOLATION OF 14TH AMENDMENT RIGHTS

.35

VIOLATION OF EQUAL PROTECION

.39

LEGAL AND FACTUAL ERRORS

,41

VIOLATION OF CIVIL PROCEDURE CODE 432.10

,47

WHY PETITION SHOULD BE GRANTED

48

INDEX TO APPENDICES

Appendix A Decision of Supreme Court of California rejected on August
21, 2018:~ at 9.55 a.m
Appendix B
Petition accepted by California Supreme Court on August
21, 2018 at 8.58 a.m

a

Appendix C
Decision by Third District Court of Appeal dismissing
appeal filed on January 17, 2018
Appendix D
2018

Trial Court last order denying JNOV dated December 21,

Appendix E

Notice of Appeal filed on January 17, 2018

Appendix F Strangers medical records Burke Caryn M and order denying
remove wrong medical records
Appendix G Law states only 90 days to accept or deny injury not 12 years
Appendix H Hand picked jury and fake jury panel trial
Appendix I Firing of 5 Indian by City of Sacramento
Appendix J

City admitted race reporter’s transcription page 1068 and 1069

Appendix K Third District Court of Appeal Court documents lying never
received while as it was received
Appendix L Unopposed motion granted
Appendix M First unopposed motion denied
Appendix O Second unopposed motion denied
Appendix P Third unopposed motion denied
Appendix Q Order to provide discovery response no later than July 11,
2016 after close to 9 months later.
Appendix R Reporters transcript RT 6-4 discovery was late
Appendix S Petitioners Discovery set one dated October 3, 2015 and proof
of service
Appendix T Petitioners response to respondent discovery set one answers
dated September 3,2018
b

i

Appendix U Proof of service by respondent’s discovery response was
attached dated August 4, 2016 as pleadings
Appendix V Order denying motion to terminate and back dating discovery
set one by respondents to July 25, 2016
Appendix W Mailing date of discovery set one by respondent August 4,
2016 and back dating discovery set one to July 25, 2016 by respondents
attorney
Appendix X Proof of service August 4, 2016 RT 7-13 and RT 7-19
attorney of records admitted it was back date to July 25, 2016
Appendix Y Court ordered to provide fully verified discovery response to
petitioners on August 10, 2016 RT 10-18
Appendix AA Discovery set one from respondent’s attorney with no date
and signature
Appendix AB on September 29, 2016 court granted respondent ordered
petitioners to provided discovery response by October 31, 2016 for not
receiving singed and date discovery request from attorney of records. And
sanction petitioners to for providing response on September 3, 2016. And
singed and dated discovery response was received around August 11, 2016.
Appendix AC Order of September 21, 2016 respondent violated second
order by not providing verification via an email on August 10, 2016 but
petitioners were sanction moving party. Judge email the bottom is different
there is no email address at the bottom email exhibit AD is email that was
received August 8, 2016 to August 17, 2016 but no email was received form
respondent. Refer Exhibit AD and Y.
Appendix AD Judge stated email provided to respondent or attorney of
records was different based on exhibit AC but there I no email at the bottom.
Appendix AE Declaration of Nancy Aragon she is the manager of treatment
facility states petitioners was served. Declaration is from independent person
server, attorney of records and respondent all committed perjury making
false declaration under oath due to public corruption.
C

Exhibit AF Email sent to Department 59 informing no phone call received
and other information.
Appendix ZD Court document was only given to respondent and attorney of
records not to petitioners party to the case due to public corruption.
Appendix ZC California laws requires if with multiple attempt parties can
not be served than court order must be obtained and than served to state
secretary and its violation of law to drop in the front door of petitioners. Due
to public corruption law was broken and it dose not matter to trial court.
Appendix ZD Two line opposition by attorney of records and respondent
with petitioners filing about 30 pages motion is no opposition.
Appendix ZE Unpaid Chiropractor bill default judgment was obtained using
defective proof and service and complaint filed by attorney of records and
Judge Hershey stated any person can file for same cause of action as many
courts as possible while as plaintiff can not file appeal and its
unconstitutional to file action for same cause once any court has decided.
Prayer item number one page 4 line one for unpaid Chiropractor bill.
Appendix ZF Small Claims Court orders of unpaid Chiropractor bill
Appendix ZG Attorney clerk jailed and judge charged for back dating court
documents but in this action it it’s legal to back discovery act to July 25,

Appendix ZH Proof of service in another case not reacted to this action filed
action number 34-201-00253819 rejected by trial court.
Appendix ZI Proof of service filed on
Appendix RT5. Person was charged in Wal-Mart Store for using race
because it illegal to use. But not when City of Sacramento admitted race.

D

Appendix Y Order’s of September 1 and 29, 2016. September 1, 2016
order petitioners were sanction filing motion to dismiss complaint for
violation of second court order. September 29, 2016 order file discovery
response set one to file provide discovery response no later than October
11,2016 for resounded to file discovery response on August 30, 2016.
Appendix Z Declaration of Nancy petitioners was not at home and was
treatment facility document was served at home.
Appendix AF Email sent to Department 59 with no response from
department 59.
Appendix ZB Documents provide was date of trial on March 20, 2017
which only given to respondent attorney and to one party only and never
provided to petitioners.
Appendix ZC Copy printed from court web site at in the evening on
Mach 20, 2017 last documents of court records was appendix C which was
only given to attorney of records an not to petitioners. Entire court
documents are to provide to all parties.
Appendix ZD If any party is unsuccessful to service it must be served to
state secretary and court order must be obtained. You can not just dump over
complaint in the front door law dose require you do that.
Appendix ZE Peteitioners 32 pages motion with two line opposition from
respondent’s attorney of records is indication not even single motion was
opposed and there is no opposition at all on this motion.
Appendix ZG Complaint of unpaid Chiropractor bill and Small Clams
Default judgment was obtained before.
Appendix ZH Small Claims Court order by default for unpaid
Chiropractor bill.
Appendix ZI
Proof of service in pleading paper was denied after several
months later court acted and endorsed stating to plaintiff to use Judicial
Council correct form POS-010 right form, 4Y in another case proof of

g

service was accepted on Judicial Council form POS-030and another case
Judicial council form POS 030 was rejected.
Appendix RT5. Person was charged in Wal-Mart Store for using race
because it illegal to use. But not when City of Sacramento admitted race.
Appendix RT6 history of all and entire public corruption step by step

h

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

f.

r

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was _______________
[ ] No petition for rehearing was timely filed in my case.
[ ]

was denied by 016 United ^

order denying rehearing appears at Appendix

’

*

W°

&

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including------------------------- (date) on___________ -------- (date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix A:
C ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including-------------------- (date) on______________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

ISSUES PRESENTED
Petition is regards to open public corruption, corrupt court and
judges which gave birth to “Human created bv judges in California To
White Collar Aids”.
Appendix A petitioner denied at 10.56 a.m in 1.57 hours creating
history.
Appendix B petition accepted which received at 8.58 a.m.
Appendix C appeal denied by Third District Court of untimely filed on
January 17, 2017 in 27 days by law petitioner had until' January 20 to file
appeal.
Appendix D last JNOV and motion to vacate was denied on December 21,
2017.
Before it changed to white collar aids it started with cancer from fake jury
of 1998 entire jury were from same hospital where 16 years old Filipino boy
died.
Cancer was changed in 2008 followed by group employment discrimination
case of firing of 5 Indian, only Indian and entire Indian by City of
Sacramento. When city had no defense than city used perjured document
testimony to defend the case. Trial Judge spoke about Iraq war and army in
group employment discrimination had nothing to do with firing of five Indian.
City admitted race should be used to hire future employees which are illegal
to use in hiring practice. This case changed aids to “WHITE COLLAR AIDS
IN 2017”
“APPEAL DENIED BY THIRD DISTRCIT APPENDIX C IS INSULT
TO ENTIRE JUDGES AND JUTSICE DPATRMENT TO USE
JUSTICE. LAST ORDER WAS MADE ON DECEMEBR 21, 2017 AND
APPEAL WAS FILED JANURAY 17, 2018 IN LESS THAN THIRTY
DAYS AND IT’S NOT OUT OF TIME BUT DUE TO PUBLIC
CORRUPTION APPENDIX E IS NOTICE OF APPEAL”.

1

BOOKS OF GENIUS RECORDS
“HISTORY HAS BEEN CREATED BY SUPREME COURT OF
CALINFORNIA DENYING APPEAL IN 1.57 HOURS AND SHOULD
GO INTO BOOKS OF GENUISE RECORDS”
Commission on Judicial performance dismissed judge
from traffic court. A traffic court judge delegated his job to
his clerk. While the judge was in chambers, the clerk heard
pleas and imposed sentences. “Judge has to deny appeal not
clerks” Rejection was signed by clerk not by judge.
“There is difference between donkey and horse although they are
indicial animal but they two different animals. Same applies here
clerk and Judse both works in court clerks do not have same powers
as iudses and can not deny appeal”
Its history that California Supreme Court clerks acts as judges of the court
who has no legal qualification never practice laws and never attend law
school.
California Supreme Court decision accepted petition at 8.58 a.m via an
email confirmation. At 10.56 a.m petition was rejected. On August 24, 2018
petitioners received written denial Appendix A.
“ THE ONLY POWERS AND JURIDICATION OF APPEEALS
COURT IS TO SEE IF LAWS ERRORS OF LOWER AND LAWS AND
VOILATION TAKES PLACE , ITS NOT A TRIAL COURT BUT BASED
ON THE REJECTION ITS DOSE NOT MATTER”
Supreme Court in California by send rejection at 8.58 a.m and than
mailing denial petition has perjured them. Two orders have been provide an
indication “ONE HAND DOSE NOT KNOW WHAT THE HAND IS
DOING”

2

Supreme Court California business opening hours is from 9 a.m
pacific time in the morning but rejection was emailed at 8.58 a.m two
minutes before Supreme Court of California opened for full business.
In the past Supreme Court of California act in a similar way and acted in
same manner to deny petition where laws had violated by condoning, aiding
and abetting judicial misconduct.
Examples
•

Fake Jury panel of 1998 medical malpractice entire jury were from

same hospital where 16 years old Filipino boy died.
•

Group employment discrimination case 5 Indian, only Indian, entire

Indian were fired by City of Sacramento. When had no defense they used
perjured testimony, trial judge spoke about Iraq war and army both had
nothing to with firing of 5 Indian. To make it worst city admitted race and
ethnicity should be used to hire employees and it’s illegal to use.
•

Multiple cases that were trial court state granted demurrer because

there was no opposition was filed. However after oral argument and motion
to vacate and order trial court change the order to untimely file. “IF

JUDGES WERE NOT CORRUPT, RACIST AND PREJUDICE ONLY
ONE ORDER SHOULD BE MADE NOT TWO”
•

Attorney accusation of violation of court order, violating discovery act

for 10 months and not filing opposition it’s within the law not to provided
discovery response and it’s within the law for trial court to deny unopposed
motion because they were unopposed
•

It’s within the law to grant a single motion unopposed because

petitioner’s been out of country and could not type department number and
file rejected motion.
•

Multiple and multiple motion was unopposed by respondent and entire

motions were denied because they were unopposed. Corruption, plus
corruption.

3

•

Supreme Court of California is out of track and dose not know path

they headings towards and denying petition in 1.57 hours by clerk not by
judges is because petitioners are not white but minorities.
“PETITIONERS SINGLE UNOPPOSED MOTION WAS
GRANTED BECAUSE IT WAS REJECTED IT DID NOT HAD
DPARTEMNT NUMBER, PATITIONERS WAS NOT ABLE TO FILE
WITH DEPRRAMENT BECAUSE PETIONER WAS OUT OF
COUNTRY”
“RESPONDEDNT MULTIPLE AND MUTIPELE TIMES DID
NOT FILE OPPOSITION BUT WAS DENIED BECASUE THEY
UNOPPOSED”
•

Due to the fact of condoning, aiding and abetting judicial misconducts

which spread like caner in 1998 fake jury panel up until 2008 group
employment discrimination case of firing Indian, only Indian, entire Indian
admitting race as factor to hire future employees that changed to aids in the
trial court in “2017 OPEN PUBLIC CORRUPTION” is now changed to
“WHITE COLLAR AIDS”
“WHITE COLLAR AIDS CREATED BUY JUDGES AND SUPRERME
COURT OF CALIFNRONIA”
•

The very latest injured had been allowed to use none employee of an

employer and none injured workers medical records to have qualified medical
evaluation. Appendix F injured worker and appendix d strangers medical
records “TOTAL DISGRACE TO CA SUPREME COURT TO REJECT
APPEAL”
“TOTAL DISGRACE TO THIRD DISTRICT COURT TO DENY
WRIT IN TWO HOURS MAKING LAWS USE ANOTHER PERSON
MEDICAL RECORDS AND AFTER ELEVE YEARS LATER TO DENY
INJURY”

4

•

Laws made by legislature in California states employer can only admit

or deny injury in “90 days”. But according to Third District Court of Appeal
no employee can admit or deny injury after 11 years because it denied
petition was that Workers Compensation court grated employer’s motion to
admit of injury and deny part of injury after eleven years later. Appendix G
made part of the petition petition has been rejected.
Petition arises from double stand and discrimination laws created by trial
court in Sacramento, California which started with minorities and protected
class people in California. Just because appeals court has condone, aided and
abetted judicial misconduct in 2017 it was no longer judicial misconduct but
“OPEN PUBLIC CORRUPTION”
Followed by Third District Court of Appeal denying an appeal denying
appeal that hand pick jury was within the laws clear violation of constitution
which states “Jury of peers” and not fake jury hand picked from same
hospital 16 years old Filipino boy died. Appendix H made part of this
petition.
Group employment discrimination firing of Five Indian, only Indian and
entire Indian Appendix I made part of this petition firing of five Indian.
Trial court never gave an assurance on motion filed by attorney
petitioner will get fair trial “RED FLAG”
Petitioner did not received fair trial and trial was biased with trial judge
only allowed limited testimony from petitioner and petitioner witness only
what judge wanted jury to hear that was allowed by petitioner and
petitioners witness.
Many of petitioners witness whose names were on the witness list was
stopped on the way to trial court and never allowed to testify for witness.
Petitioners witness those who were allowed to testify for their testimony
was heavily limited.
City of Sacramento attorney used perjured documents and testimony to
defendant the case when city had no defense.

5

City filed motion to in limine to petitioner’s expert witness instead trial
judge removed expert witness and when there was no motion to remove
expert witness.
Judicial Council of California appointed Julie McManus from Nevada to
hear motion to disqualify judge. Out of blue judge Downing who was not even
appointed by California Judicial Council made the ruling.
Trial Judge James McFetridge in group employment discrimination case
spoke about “ARMY AND IRAQ WAR” in the trial and how are both are
related to group employment discrimination case answer is not related at all.
Race is illegal to use in hiring “BUT NOT TO TRIAL COURT, THIRD
DISTRICT COURT OF APPEAL AND SUPREME COURT OF
CALIFORNIA” Appendix J made part of this petition. President Trump
has stated very clearly judges are not supposed to make laws he is right.
“UNDER THE CONSTITUTION CONGRESS IS THE ONE MAKES
LAWS”. It’s illegal to use race in any capacity to use as factor in hiring
practice.
Multiple other cases demurer response was filed trial court granted
demurrer unopposed dismissed action and after oral argument and motion to
vacate trial court changed the order it untimely and Third District Court of
Appeal denied all appeal. “YOU CAN NOT HAVE TWO TUNES WITH
ONE FLUTE IN THE HAND IT DEMURER WAS UNPOOSED OR IT
WAS UNTMEL Y BOTH CAN NOT BE RIGHT”
Appeal file in another case motion was mailed Third District Court of
Appeal was denied without making ruling on the motion. When inquired
about court what happened to the motion petitioners was informed no motion
was received. Motion was received but several weeks petitioners were lied it
was not received. After petitioner hand delivered than received information
petitioner its being returned date received in fact when it was received and
dated when hand delivered nothing than corruption. Appendix K made part
of this petition which is a “TREND”

6

XII.

Order made on this petition was motion was mailed to court for on

January 2, 2016 it takes to deliver according US postal service in
Sacramento two days.
“From January 4, 2016 until January 14, 2016 petitioner kept
calling twice a day to find if motion was received entire 10 days
petitioner was lied no motion was received”
On January 14, 2016 petitioner got sick and tied personally took the
motion to Third District court of Appeal hand delivered got it stamped and
endorsed copy given to petitioner.
“ON JANUARY 14 COURT RETURNED DOCUMENT STAMP
DATED RECEIVED WAS JANUARY 8, 2016 WHICH IS CROSSED
DATED JANUARY 8, 2016,IT ONLY TAKES JUST TWO TO DELIVER
MAILS IN SACRAMENTO”. Appendix K made part of the petitioner how
peoples rights are being cheated due to public corruption.
XII.

Case number C059138 appeal was filed with by petitioner’s attorney

stamp and endorsed copy was given to attorney. “SEVERAL WEEKS
LATER THIRD DISCTRICT COURT OF APPLEAL INFORMED
PETITIONERS ATTORNEY AAPEAL WAS LOST”
If petitioner was on death row petitioner would lost his life because
Third District Court of Appeal lost appeal.
Respondent had obtained default judge without properly serving
petitioner for Chiropractor bills in Small Claims Court. Respondent agent on
the fist visit left Small Claims Complaint in the front door and stated it was
properly served at a time neither on the defendant was at home.
After receiving orders from Small Claims Court petitioners file
complaint in the Superior Court of California for fraud and defective proof
service and so on.

DOUBLE STANDRAD LAWS

7

On this case that was file by petitioners in Sacramento Superior Court
for fraud, perjury and so on. Responded filed motion to compel to provide
response to discovery response. Date that was selected by respondent would
conflict with petitioner who had arranged before and going out of country.
For the reason petitioner will be out country dated selected petitioner
filed motion to extend time to file response. Petitioner motion to extend time
had an error no department number was included and motion was returned
to petitioner to type department number and file again. Trial court is well
aware of each department just because petitioner was out of country trial
could have filed in the department. However this never took place motion was
returned to file again with department number.
“By the time motion was returned for correction petition was
already of country”
•

UPON RETURN PATITIONER RECEIVED ORDER

GRANTNG MOTION UNOPPOSED. Appendix L made part of this
petition case number 34-2013-00153355.
First Double Standard Court and Judges World Should Not
Be Due to public corruption.
•

PETITONER FILED MOTION NUMBER ONE TO VACATE AN

ORDER PETIONER MOTION WAS UNOPPOSED AND THE MOTION
WAS DENIED BECAUSE IT WAS UNOPPOSED. Appendix M made part
of this petition.

v

Second Double Standard Court and Judges World Should Not
Be Due to public corruption.
PETIONER FILED MOTIION NUMBER ONE TO COMPEL TO
ANSWER DISCOEVRY RESPONSE PETIONER MOTION WAS DENINED
BECAUSE IT WAS UNOPPOSED. Appendix O made part of this petition.
Third Double Standard Court and Judges World Should Not Be
Due to Public Corruption.

8

PETIONER FILED MOTIION NUMBER TWO TO COMPEL TO
ANSWER DISCOEVRY RESPONSE PETIONER MOTION WAS DENIED
BECAUSE IT WAS UNOPPOSED. Appendix P made part of this petition.
Fourth Double Standard Court and Judges World Should Not
Be Due to public corruption.
“Unopposed motion only works for one part and other party is
violation of one party which is respondent and not for petitioners”
•

Third, motion was filed to compel finally court granted motion asking

petitioner to file discovery response no later than July 11, 2016 Appendix Q.
•

On July 12, 2016 petitioner filed motion o dismiss complaint and sanction

respondent in violation of court by not providing discovery response by July 11, 2016.
•

DUE TO CORRUOPT JUDGE AND COURT PETIONERS MOTION

DENIED AND PTEIONERS WEERE SANCTION FOR RESPOSNDENT
VIOLATING COURT
•

“THREE CHEERS HIPPIPY HORRAY FOR OUR CORRUPT COURT AND

JUGDEGS FOR BEING CORRUPT”
•

Respondent than file opposition and attached discovery with court documents as

pleadings without serving petitioners. Petitioners had oral argument and argued
petitioners had not been served but discovery was attached as pleading and it back dated
to July 25, 2016 and discovery that was attached had no verification. Trial coiurt agreed
there was no verification.
•

Resonedent agreed there was no verification andit was backndated to July 25, 2016

Appendix R RT
•

Court orded repsonsde to parovide vefiaction on Auguts via an email Appendix S

RT
••

Violation of 14 TH Amendment rights of the constitution of equal
protection DUE TO PUBLIC CORRUPTION
RESPONSED VIOLATED COURT ORDER OF JULY 1,
2018 AFTER FILING THIRD MOTION TO COMPEL TRIAL COURT HAD
FINALY MADE AN ORDER TO PROVIDE DISCOERVY RESPONSE NO
9

LATER THAN JULY 11, 2016. ATTORNEY OF RECORDES VIOLATED
COURT ORDER DID NOT FILE RESPONSE ONCE AGAIN. ONLY JULY
12, 2016 PETIONERS FILED ANOTHER MOTION TO COMPEL AND
DIMSISSED COMPLAINT IN VIOLATION OF MULTIPLE VIOLATION OF
DISCOVERY ACT AND SANCTION RESPONDED. INSTEAD PETIONERS
WERE SANCTION (“RULE OF JUNGLE”)FOR FILING MOTIONS THAT
PLAINTIFF AND ATTORNEY OF RECORD VIOLATED COURT ORDER
AND DISCOEVRY ACT Appendix Q made part of this petition July, 2016
order.
•

Appendix P order petitioner for violation of court of July 1, 2016 and

plaintiff and attorney of records to continue to refused to provide discovery
response. “SHAME ON OUR JUDGES AND COURT PETITIONERS
WAS SACNTION FOR FILING MOTION THAT RESPONDED HAS
REFSUED TO PROVIDE DISCOERVY SET ONE AS OPRDERED BY
COURT AND IN VIOLATION OF COURT”
“RESPONDEDNT VIOLTED COURT ORDER OF JULY 1, 2016
BUT PETIONER SACNTION IS NOTHING OTHER THAN PUBLIC
CORRUPTION THE WAY JUDGES AND COURT SHOULD NOT BE IN
THE WORLD”

VIOLTAION OF DISCOVERY ACT AND PUBLIC
CORRUPTION
Petitioner severed attorney of records discovery set one on October 4,
2015 no response was received. Around December 2015 first motion was filed
to compel. No opposition was filed and no discovery response was received.
Motion was denied because it was unopposed “Public Corruption”.
Appendix N.
Second motion was filed by petitioner to compel around February 2016
responded and attorney records did not file opposition and no discovery

10

response was received. Motion was denied because it was unopposed
“Public Corruption” Appendix Q
Third motion filed to compel, dismiss complaint in violation of discovery
act. Court made an order on July 1, 2016 responded to provide discovery
response “no later July 11, 2016”.Appendix G.
No discovery set one response was received as per court order on July 1,
2016. On July 12, 2016 petitioner filed another motion in violation of court of
July 1, 2016 to sanction responded dismiss complaint in violation of multiple
of Discovery Act Title 4 and court order of July 1, 2016.
“Instead of respondent violating court order and discovery act for close
“10 MONTHS” due to public corruption and corrupt judge
“PETITIONER WAS SANCTION HITORY OF PUBLIC
CORRUPTION SHOULD GO IN BOOKS OF GENUIUSE RECORDS
RESPONDED IS THE ONE WHO VIOLTED COURT NOT PETIONER
BUT PETIONERS HAD BEEN SACNATION FOR NOT VIOLATING
COURT ORDER”
Petitioners requested oral argument on August 10, 2016 had an oral
and informed the court discovery response was filed by responded with
petitioner motion to sanction and dismiss complaint discovery reason was
included as a motion. Discovery set one response was not provided prior to
four other motion to compel. Discovery response is not to be filed with the
court was violation by attorney records. Attorney of records also back dated
discovery response to July 25, 2016 without verification which is required by
law not to file with court.
Around October 2016 discovery set two was served no response was
received in around January 2017 motion to compel once again was filed.
Motion to was granted and respondent was ordered to file response later
than February 21, 2017 than only response was received response.
“DUE TO CORRUPT COURT AND JUDGES RESPONDED AND
ATTOREY OF RECORDS CONTIUNED TO VIOLATE DISCOEVRY

11

RESPONSE COURT AND JUDGES CONTINUED TO TAB THEIR
BACKS WELL DONE”
•

Eleven (11) months later interrogatories discovery set one was

received clear violation of professional business code due to corrupt court and
judges it doesn’t matter if discovery laws have been violated on how many
times by attorney of records. As long as we have corrupt judges and court the
“HELL GOES LAWS ON THE BOOKS” Violation civil code 2030.60
attorney of records and responded only had 30 days to provide response not
eleven months late due to open public corruption, corrupt judge and court
who care what the laws are.
•

Attorney of records and responded violated discovery act even after

filing “FIRST” motion to compel. Neither motion was opposed nor discovery
response set one was provided. Around December 15, 2015 after three (3)
months later interrogatories discovery set one was served clear violation of
professional business code due to corrupt court and judges it doesn’t matter
what are the laws. Motion to number one was denied due to corrupt court and
judges because it was “UNOPPOSED” Violation Civil code 2030.260
Attorney of records and responded violated discovery act even after
filing “SECOND” motions to compel. Neither motion was opposed nor
discovery response set one was provided. Around February 2016 motion to
compel was filed after four (4) months later interrogatories discovery set one
was not received clear violation of professional business code due to corrupt
court and judges it doesn’t matter what are the laws. Motion number two was
denied due to corrupt court and judges because it “UNOPPOSED” Violation
Civil code 2030.260
•

Attorney of records and responded violated discovery act even after

filing “THIRD” motions to compel. Around May, 2015 after seven (7) months
later interrogatories discovery set one was not received by petitioner clear
violation of professional business code by attorney of records due to corrupt
court and judges it doesn’t matter what are the laws. Motion number three

12

was granted and responded was ordered to provide discovery response no
later than July 11, 2016.due to corrupt court and judges no discovery set
response was provided as ordered by court in Violation Civil code 2030.260
•

Interrogatories set two was served to attorney of records around

October 14, 2016 attorney of records and responded once again violated civil
code 2030.6 refused to provide discovery response. On around January 2,
2017 “FOURTH” motion to compel was filed order was made that responded
and attorney records provide response no later than February 21, 2017 than
petitioners received response.

COURT ORDER VIOLATION BY ATTORNEY
On July 1, 2016 court made an order that responded and attorney of
records provided discovery set response no later than July 11, 2016. Attorney
of records and responded both violated court order and did not provide
discovery response as ordered by court.
Only August 10, 2016 made another order after an oral argument that
attorney of records provide discovery respond with verification via an email.
Attorney of records did not provide discovery response with verification on
August 10, 2016. Instead verification was mailed via US postal service.

WHERE ON THE EARTH PETIONERS CAN BE
SANCTIONED?
On July 12, 2016 petitioner filed another motion to dismiss complaint
in violation of discovery act 2030.6 from October 2015 and order of court
dated July 1, 2016. Petitioner motion was denied for responded to continue
violating discovery act and court order. Respondent and attorney of records
violated court of July 1, 2016 by not providing discovery response set one. On
July 12, 2016 petitioners filed motion to dismiss complaint and sanction
complaint in violation court order and discovery act for close 10 months.

“Due to corrupt court and judges petitioner were sanction
for filing the motionA”
13

Petitioner did not violated discovery act, petitioner did not violated court
order of July 1, 2016 but attorney of records and responded violated discovery
act from October 2015 until September 1, 2016 almost for one year is the
reason petitioner was sanction. Moving party petitioner was sanction when
responded and attorney of records violated court order and discovery act.
“THIS TYPE OF PUBLIC CORRUPTIUON ONLY OCCURES IN
USA COURT AND BY USA JUDGES IN CALINFORNIA COURTS”
On August 10, 2016 petitioner had oral argument argued petitioners did
not receive discovery response set one that was attached responded
opposition to July 12, 2016 motion to dismiss complaint. Response that
was attached to petitioner’s motion, both court and petitioners had not
received verification. Court also agreed there was no verification and was
filed late. Appendix T RT 6-7. Court ordered attorney of records to provide
discovery via an email on August 10, 2016.
Attorney of records and responded violated second court did not email
verification as ordered by court on August 10, 2016. Appendix U RT10-14
On August 19 2016 petitioners filed another motion to dismiss complaint in
violation of second court not receiving discovery response set one with
verification. Motion was denied and petitioners were sanction for filing
motion.
“Due to corrupt court and judges petitioner was sanction for
filing the motion Judge Brown agree appendix V email address
provide to attorney of records was wrong”
“Appendix V has no email at the bottom and entire email received
August 11, 2016 and no email was received on August 10, 2016 as an
evidence
“THIS TYPE OF PUBLIC CORRUPTIUON ONLY OCCURES IN
US COURT AND BY US JUDGES IN CALIFORNIA”
Appendix W. Violation of discovery act civil code 2030.50 states by
attorney of records must sign and dated entire discovery.

14

Appendix W is discovery request received without signature and date.
Civil code 2030.5 requires attorney of records to sign and date each
discovery request because discovery request had no date and signature by
attorney of records received no response could be determine when response
was due as civil code 2030.260.
Around August 11, 2016 attorney of records for responded filed motion to
compel to answers response to interrogatories set one. Attorney records filed
false and fake motion discovery set was served around June 2016 while as
appendix W has no date and signature and committed perjury.
Attorney of records attached interrogatories set with ha date and signature
and date is fraud by attorney of records. Discovery was served without date
and signature in violation of civil code 2030.250 and committed perjury.
Upon getting motion to compel and dated and signed discovery response
which was received on August 11, 2016.

“IN 20 DAYS RESPONSE WAS PROVIDED AND
PETITIONERS WERE SANCTION IN VIOLATION OF CIVIL
CODE 2030.260 BY JUDGE BROWN TO SANCTION ONLY
JUDGES IN US AND JUDGES OF USA APPENDIX Q”
“JUDGE GRANTED RESOPNDED MOTION TO COMPEL
ON SEPTEMBER 29, 2016 PROVIDE DISCOEVRY NO
LATER THAN OCTOBER 10, 2016, ONLY IN USA CORRPUT
JUDGE BROWN CAN GRANT MOTION TO COMPEL AND
SANCATION HIPPY HORRA Y THREE CHEERS FOR
CORRUPT JUDG, COURT PUBLIC CORRUPTION IN USA.
ONLY IN USA CALIFORNIA JUDGE CAN MAKE ORDER
AFTER DISCOEVRY WAS PROVIDED AND ASKED TO
PROVIDE TWO MONTHS LATER APPENDIX Y”

15

Judge granted responded motion to compel which was opposed and
discovery response and petitioner were sanction. Appendix Y
Motion to compel was granted which was opposed and discovery response
attached as exhibit in less than one month or thirty days. In violation of civil
code 2030.260 which read response to discovery is due within 30 days and
response was provide within after signed and date discovery was attached
with motion to compel response. JUDGE BROWN VIOLATED CIVL
CODE 203.260
“THERE IS ABSOLUTLEY NO VIOTION OF DISCOVERY
ACT AT
ALL FOR RESPONDING IN LESS THAN 30 DAYS"
Petitioners four motion were unopposed and entire four were denied
because they were unopposed.
Petitioners were sanction provided discovery response in less than 30
days. In other words discovery set one was responded petitioner in “WENTY
20 DAYS” and by law and Discovery Act petitioner had another 10 left over
to respond to discovery set one.

“ONLY A RETARTED AND ABSENTMIDED JUDGE
CAN SANCTION PETEIONERS AND ORDER ON
SEPTEMBER 29. 2016 TO FILE RESPONSE NO LATER
THAN OCTOBER 10. 2016 WHEN RESPONSE WAS
PROVIDED ON AUGUST 30. 2016 EVEN AFTER FILING
MOTION TO VACATE THE ORDER WAS DEINED JUDGE
BROWN IS RETARTED”
Due to public corruption and corrupt judge it doesn’t matter how stupid it
looks like “BUT I AM THE JUDGE AND WHO CARES IF JUDGE
LOOKS RETARTED”
A corrupt judge and court defective proof of service in the Small Claims
Court case complaint was left in the front door ignored the facts of defective
16

proof of service. Complaint this petition was also left in the front again judge
denied defective proof of service. Appendix Z declaration of Nancy Aragon
petitioner Payal Narayan was not home on the date who served but the
declaration states by an independent person manger that petitioner Payal
Narayan was not home on that date and prior to several weeks before and
was not expecting to return home soon Petitioner Payal Narayan was at a
treatment faculty. It’s a trend in Sacramento Superior Court as long you file
proof of service it dose not matter if documents had been served or not
corrupt court and judges will accept that.
EXAMPLE: Served to Jane Doe is clear indication of not serving.
BUT I AM THE JUDGE AND WHO CARES IF JUDGE LOOKS AT
THIS RETARTED JUDGE WILL DISAGREE OF DEFETIVE PRROF
OF SERVICE”
Complaint of malicious prosecution was filed on April 13, 2015 by
respondent. Cross complaint was file petitioner on October 5, 2015 by
petitioners. Respondent denied cross complaint on January 11, 2016.
“PROOF OF SERVICE BY RESPONDENT IS SIGNED UNDER
PEANLTY OF PERJURY IS JANUARY 12, 2015 ALMOST THREE
MONTHS IN ADVANCE OR BEFORE MALIICIOUSE PROSEUCTION
COMAPLINT WAS FILED OR TEN IN ADVAVCE AND TEN MONTHS
BFEORE CROSS COMPLAINT WAS FILED”
Petitioners motion to defective proof of service was denied its went to
deaf years that no one can file proof of service before complaint is filed “BUT
I AM THE JUDGE AND WHO CARES IF JUDGE LOOKS AT THIS
RETARTED JUDGE WILL DISAGREE OF DEFETtVE PROOF OF
SERVICE”
Special interrogatories set one response was sent on August 30, 2016
after signed and was received by attorney of records received on August 16,
2016 last date to respond was September 16, 2016..

17

‘WHERE IN THE WORLD PETITIONERS CANS BE
SNACTION FOR FILING DISCOERVYRESPONSE IN 20 DAYS.
ANSWRE STATE OF CALIFRONIA SACRAMENTO SUPERIOR
COURT SHAME YOU CORRUPT JUDGES AND COURT”

LYING BY DPEARTMENT 59
On February 16, 2017 Petitioners received telephone message on the voice
mail named Paula from department 59. Petitioners called back and spoke to
Paula who stated she had called about settlement conference statement.
Petitioners explained they will not file settlement statement instead due to
multiple violation by respondent and attorney of records another motion will
be file to dismiss complaint.
Paula than stated to petitioners there was too many issue and she will talk
to her supervisor and will drop the matter and she will call back. Paula
further provided an email and stated incase if petitioners choose to file
settlement statements petitioners could send an email.
With no phone call from Paula as she promised on February 21, 2016
Petitioners sent email to the email that was provided. Appendix V makes
part of this petition. Petitioners neither received any response nor were any
message email not delivered. It’s presumed and its petitioner’s inclination
email was received.
On February 22, 2017 order was made in department 59 to show cause for
petitioners not attending settlement conference. Around February 24, 2017
Petitioners called department and it happened Paula answered the phone
call. The following issues were brought with Paula and her response.
Emailed was sent to the emailed she provide and there is no response why
there was no response.
•

She stated she did call phone was disconnected

Petitioners’ did not receive phone call or any message that was left over so
•

Petitioner’s asked her

18

what phone she called
Answer:

she has no phone number she called

What was the date did she called?
Answer:

she has no date

What was the time she called?
Answer:

she ahs no time

Paula only explaination was the payer she wrote all information has
been destroyed.
Petitioners at that time was paying for five years phone in advance
and currently its been changed to three years. Petitioners can never be

1

disconnected for none payment petitioners phone was never disconnected and
it was not disconnect at that time. Even if petitioner’s phone is disconnected
every messages left over on petitioner’s phone number will go their email. No
such message was received from Paula.
“PUALA JUST LIED TO PETIONER SHE NEVER MADE ANY
PHONE CALL AT ALL”
Paula than asked petitioners to hold on the line and out o “BLUE” male
caller answered the phone call.
“HE STATED TO PETIOENER TO STOP HARRSING HIS STAFF
AND HANG UP THE PHONE”
When petitioners asked his and asked to spell he gave the name but did
not spell it. Immediately complaint was filed about rude behavior with
Executive Office response was received in writing. At that point after getting
response Petitioner realize it’s Judge Ben Davidian who took the phone from
Paula and in fewer one minute he hanged up the phone. This was nothing
other tan cover up Paula lies that she never called and phone was never
disconnected because she no date, no time and phone number she called.

OPEN PUBLIC CORRUPTION
FULLY CORRUPPT JUDGE CULHANE

19

After all the above public petitioners filed response to motion to show case
set for hearing on set for March 20, 2017 at 9 a.m in the morning for not
filing settlement conference statement. One of the petitioner’s Mr. Narayan
attending the hearing in department 47.
Presiding judge Culhane presided over the matter after calling petitioner
matter and by looking petitioners were not represented, minority not white
and color skin left court room.
Entire attorney in the court and everyone started to get panic when Judge
Chulhan never came to court for several hours. Petitioners also not able to
decided what was going behind the scene as the attorneys who were waiting
as well.
After several hours later judge Culahne came to court called matter and
told both parties come at 1.30 dept 45 petitioners matter by than other
petitioners Ms. Narayan was in the court. Attorney for records than asked
Judge Culhane “But we were here for settlement”. Judge Culhan
responded due the fact complaisant was filed against Judge Davidian come at
1.30 p.m
“AS BOTH PARTIES WERE WALKING CLERKS CALLED ATTORNEY
OF RECORDS AND GAVE DOCUMENTS BUT DID NOT GAVE THE
SAME DOCUMENTS TO PETEIONER BEING PARTY APPENIX ZB TO
THE CASE”
“Only one part responded was handed court documents”
“ AS PETIONERS WERE LEAVING DEPARTMENT 47
PETEIONERS ASKED JUDGEL CULHANE WHAT WERE THEY
COMING FOR 1.30 P.M JUDGGE CULLAHNE RESONDED JUST
COME”
“Late in the afternoon petitioners went to court site and saw it
was the last document create on Marc 20. 2017 appendix

DENYING COUNSEL

20

FULLY CORRUPT JUDGE HERSHEY
At 1.30 p,m when petitioners arrived in department 45 after waiting for a
while Judge Hershey came in. She told she was in criminal trial she had to
rush civil after she was call but Judge Culhane.
At that point Petitioners asked what type of trial and they were never
informed in the morning about any trial even asking judge Culhne why
petitioners were coming at 1.30 p.m.
•

Response received by Judge Hershey was that petitioners were

informed.
•

Petitioners than stated based on an order of from department 59 last

notice from court record only matter in the morning of Mach 20, 2017 was to
show cause for not filing settlement statement.
•

Judge Culhane than asked plaintiff attorney if he was informed of the

trial and the response was yes. Under oath attorney lied and judge asked if
he has records at that point attorney gave.
•

Attorney of records first documents Judge Hersehy stated that’s not

right.
•

Attorney of records than gave second documents Judge Hershey again

stated it was not right.
•

i

Attorney provide records than gave third documents and than Judge

Hershey stated yes petitioners were notified and copy was given. Documents
that were provided Appendix ZB made part was never given to petitioners
and petitioner had not received it. Judge than stated she will continue with
trial document states about trial.
• Petitioners than informed Judge Hershey because in the morning Judge
Culhane stated just come they were never informed of trial.
•

Petitioners than stated just because they were never informed of trial

petitioners were in department 45 for trial and were not ready for trial.
•

Petitioners than informed judge Hershey they no attorney of theirs in

the court trial is bogus.

21

• JUGDGE HERSHEY RESPONDED YOU ARE NOT
ALLOWED ATTORNEY.
NO WITNESS ALLOWED
•

Petitioners than stated to Judge Hershey they have no witness or

witness list trial is bogus.

• , JUDGE HERSHEY THAN STATED NO YOU ARE NOT ALLOWED
TO BRING WITNESS OR ASK RESPONED TO BRING WITNESS.

NO EXHIBITS
•

Petitioners than asked Judge Hersehy they do not have any exhibit trial

is bogus.
•

JUDGE HERESHY THAN RESPONDED YOU ARE NOT

ALLOWED TO BRING EXHIBITS NEITHER EXHIBIT WAS PROVIDE
TO PETIONERS TO TRIAL JUDGE OR TO PETEIONERS.
Petitioners than asked Judge Hersehy there are no jury no jury
selection took place and we do have jury.

• JUDGE HERSHEY THAN TOLD PETEIONERS NO YOU ARE
NOT ALLOWED JURY TRIAL.
Petitioners s than stated no deposition has been taken and trial is bogus.
•

JUDGE HERSHEY RESPONED YOU CAN TAK DEPOSITION

AND NOT ALLOWED TO TAKE DEPOSITION.
TRIAL WHILE PENDING DISCOVERY AND MOTIONS
•

Petitioners than stated to Judge Hershey discovery, has not been

completed and we need to time to complete before trial takes place.

• JUDGE HERSHY STATED YOU CAN NOT COMPLETE AND YOU
ARE NOT ALLOWED TO COMPLETE DISCOEVRY.
•

Petitioners told Judge Hersehy respondent and attorney of records has

not provide response to discovery response set 2 trial cannot take place.

22

•

JUDGE HERHEYINGORED AND VIOLATED DISCOVERY ACT

BY REFUSING TO COMPLETE DISCOVERY AND STATED TRIAL
WILL CONTINUE
Petitioners than informed judge Hershey there were two pending
motion and trial can not continue.
4.

Motion for reconsideration filed around October 28, 2016

5

Motion to disqualify Judge Brown

Judge HESRHEY IGNORED AND STATED TRIAL WILL

e

CONTINUE DESPITE THERE WEERE PENDING TWO MOTOIONS
NO RULING HAS
BEEN MADE.
“OPEN AND FULLY OPEN PUBLIC CORRUPTION BY CORRUPT

JUDGES GO AMERICA GO FOR PUBLIC CORRUPTION

AND CORRUPT JUDGES”
MORAL TURPITUDE
Judge Culhan orchestrated crime in dept 47 on March 20, 2017 by
keeping trial secret even when petitioners asked why they were coming at
1.30 p.m was not provided. Attorney of records was only provided for trial.
Court document was only provided to respondent and not to petitioners.
Making deal with Judge Hershey to come and have fake and secret trial,
bullying, taking advantage of his position, abuse of office on involved in
public corruption by setting up secret trial, dishonesty, criminality,
harassment, bullying, terrorizing and conspiring to defraud by Justice
System. Obstruction of justice, being racist and prejudice because of color of
skin.
23

Judge Brown denying almost entire motion of petitioners with only two
lines opposition. Judge Brown granting entire motions of respondent. Judge
Brown denying multiple and multiple unopposed motion of petitioner and
grated single motion of petitioners unopposed due the fact of having no
department and petitioners could not have re-file with department number
being out of country was granted unopposed motion. Denied petitioners
motion to vacate because it was unopposed.
Sanction petitioners for respondent violation court order twice by attorney of
%

records. First court order was July 1, 2016 and second order was August 10,
2016. Instead of sanction respondent and attorney of records for violation of
two court orders petitioners were sanction bulling petitioners. Aiding and
abetting public corruption. Complaint and other documents were left in the
front door of petitioners not served properly. Appendix Z is an example. Also
by law requires if multiple attempt of personnel attempt is unsuccessful than
court order must be obtained and complaint must be than served to state
secretary Appendix ZD.
Responded violated discovery act of July 1, 2016 but petitioners were
sanction bullying and taking advantage of the position and abuse of office. Its
responded who violated two court orders not petitioners public corruption.
Four motions were unopposed but it was denied because it was unopposed
due to bullying, public corruption Judge Brown denied all also abuse of office
and public corruption. Those motion that were opposed were opposed with
two lines only. Apendix ZE motion and opposition motion is about is 29 pages
opposition is two lines.
Respondent violated August 10, 2016 order by not emailing verification.
Petitioners filed motion to sanction and dismiss complaint was denied and
petitioners were sanction for not violating “court order but responded violated
court order”

24

Allowing and agreeing discovery response set one was served without
signature and date to due corrupt judge in violation of civil code §2030.250
attorney required to sign and date discovery.
Petitioners were sanction for “ FILING DISCOVERY SET ONE ON
AUGUST 30. 2016 AND ORDEDED ON SEPTEMEBER 29. 2016
TO FILE DISCOVEY RESPONSE NO LATER THAN OCTOBER
10. 2016 DUE TO CORRUPT JUDGE BROWN WHO IS
RETARTED TO SANCTION”
Judge Hereshy bulling and using thereat to be arrested if petitioners
refuse to continue fake trial be arrested, counted with fake trial due to public
corruption. Denying attorney, denying witness, denying to cross examining
responded, denying to take deposition, using perjured document to continue
trial. Informing petitioners it dose not matter if Small Claims Court made
order. Another court can also make another order. Denying exhibits of
responded, denying taking deposition. Using back date documents to continue
fake trial dishonesty, criminality, harassment, bullying, terrorizing and
conspiring to defraud by Justice System obstruction of justice.

VIOLTAION OF CONSTITUTIONAL RIGHTS
FIFTH AMEDMENT RIGHTS
With the above of fake trial petitioners than informed Judge Herashy
they will remain quite and would not say anything and use Fifth Amended
Rights of the constitution.
“PETITONERS WERE THAN THETETN BY JUDGE HRESHY WITH
BAILFF ARREST AND CALLED BAILLIF IN THE COURT WHO SHOULD
BY IN THE COURT IN STOOD IN THE COURT ENTIRE FAKE TRIAL”
Rather than get arrested petitioners had no option but to compile and sit in
the court for entire fake trial. Judge Hershey also denied petitioner to cross
examination and stop petitioner to cross examination
25

Judge Hershey than continued with fake trial under threat if petitioners
continues to assert their rights the will be arrested by b.ailiff who was
standing by.
Petitioners than informed Judge Hershey petitioners will remain silent
she denied that and stated
“YOU CAN USE FIFTH AMEDMENT RIGHTS TO REAMIN
SILENT”
Judge Hershey than asked bailiff or sheriff to stand by and refused to
request to remain silent involution of Fifth Amendment Rights of the
constitution which reads.
‘You have the right to remain silent and not provide information that
can incriminate you or affect the outcome your case”
Fifth Amended rights states you can not tried to two different courts. A
default was obtained in the Small Claims Court for unpaid Chiropractor bill
with defective proof of service case numbers
Petitioner argued with judge Hershy fake trial can not continue with
unpaid Chiropractor bills. Judge Hershey denied petitioners motion sating
“NO YOU CAN GO TO MANY COURT AS POSSIABLE AND FAKE
TRIAL WIL CPONTINUED”
Judge Heasrhsy violate Fifth Amendment Rights of petitioners by
continue right for unpaid Chiropractor bill. Appendix ZF complaint
Cause of action filed by attorney of records. Appendix order of Small
Calims Court. Appendix ZG.
•

Petitioners than informed Judge Hershey you can only choose on

one court and that court has entered an order and judgment you can file in
another court Judge Hersehy still denied its because of public corruption.

VIOLATION OF 14TH AMEDMENT RIGHTS
VIOLATION OF FOURTEEN AMENDMENT RIGHTS
SECTION 1.
26

“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws”.
Petitioners due process rights have violated by judge Brown on case
number 34-2013-00153355 granted motion to compel within making order to
compel because petitioners’ amended opposition with department number
filed because petitioners was put of country because motion was
“GRNATED UNOPPOSED”
After petitioners return to country one month later found an order and
field motion to vacate order on October 22, 2014.Motion was unopposed Judge
Brown denied the motion because its “DENIED UNOPPOSED”
“Petitioner’s first motion unopposed denied because it was
unopposed and unopposed only works for one party only”
On this petition case number 34-2015-0017787 around October 2015
discovery set one was served to attorney of records. No response was received
around December 2015 petitioners filed motion to compel. Motion was
unopposed by attorney of records was denied by Judge Brown because it was
“DENIED UNOPPOSED”
“Petitioners second motion unopposed was denied because it was
“UNOPPOSED” and unopposed only work for one party only”
Around February 2016 Petitioners filed another motion to compel for
not providing discovery response set one even after filing motion to compel.
Motion was unopposed and was denied by Judge Brown because it was
“DENIED UNOPPOSED”
“Petitioners third motion unopposed motion was denied because
it was “UNPPOSED” and unopposed only works for one party only.

27

INFACT NOT EVEN A SINGLE MOTION OF PETEIONERS WERE
OPPOSED EACH OPPOSIION BY ATTORNEY OF RECORDS WAS
ONLY TWO LINES OF OPPSITION.
EXAMPLE; APPENDIX ZE AND ZF IS TOW LINE OPPOSITION
APPENDIX ZE IS 29 PAGES TO VACATE ORDER MOTION TO
VACATE AN
ORDER. APPENDIX SM TWO LINE OPPOSITION. WHAT WAS
OPPSOED PETEIONERS HAS NO IDEA BUT MOTION WAS DENID
BY JUDGE BROWN.

“29 vases motion 2 lines opposition motion denied
nothing other than public corruption”
•.

Denied attorney representation even on request

•
•

Denying bringing witness
Denying crossing examination and or bringing witness by

respondent
Denying bringing exhibits
Refusing to provide and did not provide respondents exhibits
•

Providing court documents to respondent only and not to petitioners

•

Keeping trial secret and only informing trial to respondent

attorney.
•

Allowing respondent to tampering with public records by back

dating discovery response to July 25, 2016.
•

Denying appeal filed in less than one moth order made in

December 21, 2016 appeal filed on January 17, 2017 as untimely by
Third District Court of Appeal.
•

Supreme Court of California rejected appeal in one hour and

fifty seven seconds (1.57 hours) by clerk not by judge.
•

denying jury trial even on request.

28

Civil Rights Violation civil right was denied because petitioner is
protected class by civil rights of an individual are denied or interfered with
because of their membership in a particular group or class. Various
jurisdictions have enacted statutes to prevent discrimination based on a
person's race, sex, religion, age, previous condition of servitude, physical
limitation, national origin, and in some instances sexual orientation. Illegally
petitioner complaint was sustained without leave to amend as unopposed
because plaintiff is minority and white. For several years of filing pleading by
defendants and plaintiff was systematically dismiss for being unable to see
the opposition was filed or not able to see opposition and amended complaint
filed. Plaintiff has no control no to show judges where the opposition was filed
to find. Sacramento Superior Court has formed a trend in two others case
was dismissing on the same basis or reason demurrer was unopposed while
plaintiffs had filed opposition. In another case on October 22, 2014 judge
informed plaintiff he can not see the amended complaint filed on December
30, 2013. All the four case that petitioner has knowledge of that judges were
unable to documents filed in the court are different minorities and not white.
Multiple documents filed in the court in drop sealed box method required to
file has been sot and court can not give any answer what has happened which
includes petitioner and other minorities’ plaintiff has knowledge. The very
latest lost documents was on September 30, 2015 motion to demurrer in a
different case as of December 15, 2015 court has not been able to enter the
motion which was supposed to be hard in November 2015. Petitioner had to
file another demurrer on the counter while finding out motion was not
entered and plaintiff had filed notice of default. Supervisor Annabel twice
promised to petitioner it will be entered and it not lost. Executive office
manager Selby also promise to petitioner documents is not lost and it will be
returned since petitioner has filed one on the counter. Letter written to Selby
about a week ago has not been responded yet. Petitioner and other minorities
complaint defendants has filed demurrer all were sustained with leave to

29

amend. In Narayan vs. Prasad case petitioner filed demurrer court
completely denied the demurrer while as in the in this case there time
demurrer was filed two were sustained leave to amend and on the third time
it has been dismissed unopposed. This shows Sacramento Superior Court has
set up vendetta against minorities and petitioner.
Violation Equal Protection
The Equal Protection Clause of the 14th amendment of the U.S. Constitution
prohibits states from denying any person within its jurisdiction the equal
protection of the laws. In other words, the laws of a state must treat an
individual in the same manner as others in similar conditions and
circumstances. A violation would occur, for example, if a state prohibited an
individual from entering into an employment contract because he or she was
a member of a particular race. The equal protection clause is not intended to
provide "equality" among individuals or classes but only "equal application"
of the laws. The result, therefore, of a law is not relevant so long as there is
no discrimination in its application. By denying states the ability to
discriminate, the equal protection clause of the Constitution is crucial to the
protection of civil rights.
In this respondent filed three demurrer petitioner was forced by court to file
three opposition. Two demurrer were sustained leave amend and third time
court sustained without leave to amend.
Narayan vs. City, Kusum vs. SMUD two demurrer were filed one was
sustained with, leave to amend and second one was sustained without leave
to amend as unopposed while opposition was filed.
Prasad vs. Narayan petitioner filed first demurrer this court denied the
demurrer in violation of equal protection. If this court can sustain petitioners
and other minorities complaint with leave to amend same should be done
when petitioner filed the demurrer but no petitioner demurrer as denied in
violation of equal protection.
Same applies to Narayan vs. Prasad defendant did not filed the opposition
petitioner’s motion to vacate was denied. Defendant filed motion where
petitioner filed motion to extend time to file opposition was granted
unopposed in violation of equal protection.

30

IN ONE HAND THIS COURT SUSTAINED DEMURRER NO LEAVE TO
AMEND AGAINST PETITIONER ON THE HAND COURT DENIED
PETITIONERS DEMURRER IN VIOLATION OF EQUAL PROTECTION
BECAUSE OF COLOR OF SKIN, RACE AND NOT WHITE IN VIOLATION
OF EQUAL PROTECTION.
ON HAND GRANT DEFENDANTS MOTION UNOPPOSED ON THE DENY
PETITIONERS MOTION UNOPPOSED IN VIOLATION OF EQUAL
PROTECTION.
Court accepted proof of service on Ali vs. I Design on form POS-030 for
summons and complaint and rejected petitioners proof of service that form
POS-030 can not be used for proof of service in violation of equal protection.

LEGAL AND FACTUAL ERRORS DUE TO PUBLIC CORRUPTION
•.
•
•

Denied attorney representation even on request
Denying to bring witness
Denying to cross examination and or bring witness by

respondent
Denying to bring exhibits
Refusing to provide and did not provide respondents exhibits
•

Providing court documents to respondent only and to petitioners

•

Keeping trial secret and only informing trial to respondent.

•

Allowing respondent to tampering with public records by back

dating discovery response.
•

Denying appeal filed in less than one moth order made in

December 21, 2016 appeal filed on January 17, 2017 as untimely by
Third District Court of Appeal.
Supreme Court of California rejected appeal in one hour and
fifty seven seconds ( 1.57 hours) by clerk not by judge.
•

Denying jury trial even on request.
*.

PETIONERS MOTION TO EXTEND TO FILE OPPOSITION CASE

NUMBER 34-2013-00153355 DUE TO THE FACT DATE SELLECTED BY
31

RESPONDET WOULD CONLFCIT WITH PETIONER, PETITIONERS WAS
GOING OUT OF COUTRY. MOTION HAD NO DEPARTMENT NUMBER
WAS RETURED BY TRIAL TO TYPE DEARTMENT. BY THAN
PETEIONERS WAS OUT OF COUNTRY. BY THE TIME PETITIONERS
MOTION WAS RETURNED FOR CORRECTION AND FILED AGAIN
WITH DEPARTEMNT NUMBER PETEIONER WAS ALREADY OUT OF
COUNTRY.
ON RTERUN PETITIONERS FOUND OUT ORDER GRANTING
REPONDEDNTS MOTION TO COMPEL BECAUSE IT WAS UNOPPOSED.
*

PETEIONERS FILED MOTION TO VACTATE ORDER MOTION WAS

DENIED BEACAUSE IT WAS “UNOPPOSED. (JUGNLE LAW OF CA)
PETIONER FILED TWO MOTIONS TO COMPEL FOR
RESPONDED TO FILE DISCOVERY RESPOSNE BOTH MOTIONS WERE
UNOPPSOED BUT JUDGE DENIED BEACSEU IT WAS UNOPPSOED.
(JUNGLE LAW OF CA)
*.

RESPONDED VIOLATED COURT OF JULY 1, 2016 PETITIONERS

MOTION TO DISMISS AND SANCTION RESPONDENDT MOTION WAS
DENIED AND PETITIONERS WERE SANCTION FOR RESPODENT
VIOLALTING COURT. (JUNGLE LAW OF CA)
*.

RESPONDED WAS ORDERDED TO SEND VEFRIED DISCOEVRY

RESPONSE VIA AN EMEIL APPENDIX U RT-10-18, ON AUGUST 10,
2016. NO VEREIFATION DISCOEVRY RESPONSE WAS RECEIVED.
AROUND AUGUST 19, 2016 PETITIONERS MOTION TO DISMISS
COMPLAINT AND SANCTION RESPONDED FOR VIOLATION OF
SECOND COURT ORDER. INSTEAD PETEIONERS WERE SACNTIONED
ONCE AGAIN FOR RESPONDED VIOLATING COURT ORDER OF
AUGUST 4, 2016 WAS UNOPPOSED BUT DENEID BECAUSE
RESPONED VIOLATED COURT ORDER. (JUNGLE LAW OF CA)
*.

RSPONEDE REFUSED TO PROVIED DISCOVERY SET ONE

RESPONSE FROM OCTOBER 2015 UNTIL SEPTEMBER 2016, EVEN
32

AFTER FLING MUTIPLE MOTION TO COMEPL. COURT COUNTINED
TO DENIED FOUR UNOPPSOED, MOITONS AND VIOLATED TWO
COURT ORDERS WAS GARNETD. ((JUNGLE LAW OF CA)
*.

RESPONDEDNT AND ATTORENY OF RECORDS VIOLATED

DISCOIVEY SET TWO SERVEED AROUND OCTOBER 2016 AND
REFUSED TO PROVIDE REPSONSE AND COURT AGAIN GRATEDN
LEEWAY BY NOT DMISSING COMPALINT FOR VIOATION OF SECOND
DISCOERVY RESPOSNE.
*.

FOR BACK DATING DISCOVERY RESPONSE TO JULY 25, 2017

AND ADMITING BACK DATING APPENDIX ZI RT7-19. RESPONSE OF
DISCOVERY RESPOSNE IT WAS ATTCAHED TO PETITIONERS
MOTION AS PLEADINGS NOT AS EXHIBIT. WITH 3 MOTIONS TO
COMPEL ON DECEMBER 2015, JANAUARAY 2016 AND MAY 2016,
COURT CONTINUED TO VIOLATE PETEIONERS RIGHTS BY GIVING
LEEWAY TO RESPONDENT. DISCOVERY RESPOSNE ARE NOT FILED
WITH COURT AS WELL.
*.

REPSONDEDNT BACK DATE VERIFIACTION THAT WAS NOT

FILED WITH COURT ON AUGUST 4, 2016 WHICH WAS NOT FILED
WITH COURT.
*.
*.

COURT DENIED PETEIONETIONERS MOTION
JURY OF PEASE GURANTED IN THE CONSTITUTION DENIED

*.

DEINED PRETARIL RECORDS

*.

DENIED TO TAKE DEPOSITION
DENIED WITNESS LIST
DENIED PETEIONERS TO BRING WITNESS

*.

KEEP TRIAL SCECERT

*.

PROVDING COURT DOCUMENTS TO ONE PARTY RESPONDENT

ONLY.
*.
i

ALLOWING AND GIVING LEEWAY TO REPONDENT TO FILE

PROOF OF SERVICE SEVERAL MONTHS BEFORE COMPLAINT WAS
33

FILED. COMPLANIT WAS FILED AROUND APRIL 2015 AND CROSS
COMPALINT FILED IN OCTOBER 2015
*

OBSTCTUIN OF JUSTICE BY JUDGE CULHANE, HERESHY AND

BROWN
*.

VILATION OF RULE 8.30 NOT FILING DISCOEVRY RSPONSE

FROM COTOEBR 2015 UNTIL SEPTEMBER 2016. FOR NO FILING
OPPSOTION TWO MOTION TO COMEPL. NOT FLING OPPOSITION
MOITION TO VACATE. FILING PROOF OF SRVICE SEVERAL MONTHS
BFEORE COMPLAINT WAS FILED. DENYING UOPPPOSED MOTION OF
PETITIONERS , FILING PROOF OF SERVCE TEN MONTHS BEFORE
CROSS COMPLAINT WAS FILED LYING UNDER OTAH APPENDIX ZA.
NOT SIGNING AND DATING DISCOVERY SET ONE AEEPNDIX O.
MAKING AND FALSE DECALARTION PETEIONERS WERE
SEREVED APPENDIX R. EVERY PROOF OF SEFRVICE DEFECTIVE
ENTIRE PROOF SERVICE WAS LEFT OVER IN THE FRONT. LYING
UDER OATH EMAIL THAT WAS APPENDIX W
*

TAMPERING WITH PULIC RECORDS BACK DATING DISCOVERY

RESPOSNE SET ONE TO JULY 25, 2016. THAN SENDING
VERIFICATION AFTER AUGUST 10, 2016. APPENDIX T RT 10-18 COURT
ORDED ON AUGUST TO SEND VERIFIFATION DISCOVERY SET WAS
NOT RECIEVED “AUGUST 10, 2016” ALSO BACK DATED.
AFTER ORAL ARGUMNET COURT MADE ORDER TO EAMIL ON
AUGUTS 10, 2016. ATTORNEY OF RECORDS AND RESPONDED BOTH
VIOLATED SECOND COURT ORDER BY MAILING VERFICATION
APPENDIX ZK NOTICE FROM POST OFFICE SEPTEMBER 1, 2016
TAMPERING WITH PUBIC RECORD IS CRIME BUT DUE PUBLCI
CORRUPTION IT DOSE NOT MATTER WITH TRIAL COURT, THIRD
DICTRCIT COURT OF APPEAL AND SUPREME COURT OF
CALIFORNIA. APPENDIX ZF ATTORNENY, CLERK AND JUDGE HAD
BEN CHARGED HAD BEEN CAHRGED BUT NOT IN CLAIFORNIA.
34

APPENDIX T RT 7-19 ATTORNEY FOR RESPONDED ADMITTED
TAMRING WIH PUBLIC RECORDS DISCOVERY RESPONSE WAS
BACKED TO JULY 25, 2016 THAT WAS ATTAAHCED TO PETEIONEERS
MOTION AND SERVED TO PETITIONERS.
4

VIOLATION OF DISCOEVRY ACT CIVIL CPOSDE §2030-260 SET

ONE WAS RESPONDED AROUND SEPTEMEBER 2016 ALMOST
ELEVEN MONTHS LATER. SET TWO WAS RESPPONDED AFTER
ALMOST FOUR MONTHS LATER. DISCOVERYY ACT STATES
RESPOSNE SHOULD BE MADE IN THIRTY DAYS. DISOCEVRY SET
ONE WAS DUE ON NOVEMBER 2015 AND SET TWO WAS DUE IN
NOVEMBER 2016.
*.

VIOALTION OF CIVIL CODE §2030.80 DISCOVERY RESPONSE

ARE NOT FILED WITH COURT BUT ATTORNEY OF RECORDS AND
RESPONDENET FILED IT WITH COURT REFUSING TO RESONSE FOR
ELEVEN MONTHS, THREE MOTIONS TO COMPEL AND VIOTION OF
TWO COURT ORDERS.
*.

VIOLATIONCVIVL CODE §230.80 ATTORNEY IS SUPPSOED TO

SIGN AND DATE ENTIRE DISCOEVRY. APPENDIX W WAS SERVED TO
PETITIONERS WITHOUT SIGNATURE AND DATE.
*.

TAMPERING WITH EVIDENCE ATTORNEY WAS PROVIDE COURT

DOCUMNTES ON MARCH 20, 2017 . HE FAILED TO DISCLOUSE TO
JUDGE IT WAS GIVEN TO HIM IN THE MORNING AS ALL PARTIE’S
WERE LEVING DEPARTMENT 47. MAKING FALES PROOF OF SERVICE
DOCUMENST WERE SERVED AND NOT EVEN SINGLE DOCUMENTS
WAS SERVED. APPENDIX Z
*.

VIOLATION OF CVIL PROCEDURE CODE 432.10.
ATTORNEY OF RECORDS AND RESPONDED VIOLTED BY LIVNG

ENTIRE DCOUMENTS IN THE FRONT DOOR AND FILING FALSE
PROOF SERVICE THEY WERE SERVED. APPENDIX Z IS DECLARATION
FROM THE MANAGER OF THE FACILITY PAYAL WAS GETTING
35

TREATMNT SEVERAL WEEKS BEFEORE ONE OF THE DOCOUMNT
PRESUMED TO BE SERVED WITHOUT INDEFINITE TIME PAYAL
WOULD RETRUN HOME AFTER TREATMENT. ATTORNEY OF
RECORDS STATE IN OPPSITION AT THE BOTTOM OF APPENDIX V
AND COURT ACCEPTED. APPENDIX WAS ATTCAHED AS AN EXHIBIT
FOR THE PURPOSE OF INFORMING COURT AND JUDGE SECOND
COURT WAS VIOLTED DATED AUGUTS 10, 2016 TO SHOW TO COURT
EMAILS RECEIVED BY PETEIONERS FROM AUGUST 11, 2016 TO 17 NO
EMAILM WAS RECEIVED FROM ATTORENY OF RECORDS. APPENDIX
U COURT ORDERD ATTORNEY TO SEND VERFICATION VIA AN
EMAIL.

REASON PETITION SHOULD BE GRANTED
Due to the fact “IREPABLE DAMAGES” caused to petitioners court
judges and court. Due to the fact of “OPEN PUBLIC CORRUPTION”
Due to the fact of “CORRUPT JUDGES”. To stamp out all forms of public
corruption and corrupt judges which started in 1998 fake jury panel, followed
by group employment discrimination case of 2008, many other case of
minorities and this case day naked public corruption which engulfed like
cancer inl998, that changed to aids in 2008 and in March 20, 2017 which it
changed to “WHITE COLLAR AIDS CREATED BY JUDGES”
To remove all forms of public corruption and corrupt judges. To eradicate
entire forms of corrupt judges. To stamp out all forms of public corruption
and corrupt judges.
EVEN THERE IS REPORTES TRANSCRIPT DUE TO FAKE TRIAL
CORRPUT JUDGES AND COURT. ATTORNEY OF RECORDED STATED
HE DID NOT FILE RESPOISNE TO CROSS COMPLAINT. ATTORENY OF
RECORDS COMMITED PEJURY IN TWO HIS DENIAL HE DID FILE
RESPOSNE BECAUSE CROSS COMPALINT WAS DIMSISSED AND HE
DID FILE RESPONSE, SECONDLY ATTORNEY COMMITED PERJURY

36

IN HIS DELACTION UNDER PEANLTY OF PERJURY DENIAL OF
CROSS COMAPLINT WAS SERVED ON JANUARY 15, 2015 SOME NINE
MONTHS BEFORE CROSS COMPALINT AND THREE MONTHS
BEFEORE COMPLAINT WAS FILED. “COMPLANT BY ATTORNEY OF
RECORDS WAS FILED ON APRIL 13, 2015 PROFF OF SERVICE IS DATE
JANUARAY 15, 2015 APPENDIX ZJ” ENTIRE PROOF OF SEVRICE IS
FALSE AND NEITEHR OF PETEIONERER’S WAS PROPERLY SERVED
BUT DOCUMENTS WAS LEFT IN THE FRONT DOOR.
“APPEDNDICX Z PETITONER PAYAL WAS NOT HOME SEVERAL
WEEKS PRIOR AND SEVERAL WEEKS AFTER PROOF OF SERVCIE
AFTER BUT WAS AT A TREATMENT FACILITY’. THIRD PERJURY
COMMITED BY RESPONDED AND ATTORNEY OF RECORDS
“OPEN AND NAKED PUBLIC CORRUPTION CORRUPT
JUDGES CORR UPT ATTORNEY AND COURT”
Naked and open public in the court is worst than COVID-19 and Supreme
Court has to step stop giving birth COVID-20 No 2 by stopping all forms of
public corruption in our courts.
In 1998 Sacramento Superior public corruption Fake Jury Panel public
corruption become “CANCER”
In 2008 fake trial of group employment discrimination firing of 5 Indians
changed public corruption into “AIDS:
In 2017 aids changed in to “COVID-19 “SECRET TRIAL”
So far Supreme Court has allowed this to continue from cancer to aids to
COVID-19 and.if Supreme Court dose acts now it will give birth to COVID 20
No 2 and so on.
In a simple term most of the judges think once they are appointed they
own the bench and at some they will die that bench will them go to grave
yard but corrupt judges without take their sin with them.

37

Detail history are entire naked public corruption most of the judges dose
not want the follows laws passed by congress are and as long as I am the
“THE HELL GOES LAWS”
Detail history are the reason petition should be granted to avoid giving
will to birth to second COVID -20 No 2 which will be worst than COVID-19 if
Supreme Court dose not act now Appendix RT 6
NAKED AND PUBLIC CORRUPTION
DOUBLE STANDARD LAWS
COURT ORDER VIOLATION BY ATTORNEY
LYING BY DEPARTMENT 59
OPEN PUBLIC CORRUPTION
(FULLY CORRUPT JUDGE CULHANE)
VIOLATION OF SIXTH AMENDMENT RIGHT
(DENYING COUNSEL)
FULLY CORRUPT JUDGE HERSHEY
JUDGE HERSHEY RESPONDED YOU ARE NOT ALLOWED TO
ATTORNEY.
NO WITNESS ALLOWED
NO EXHIBITS
VIOLATION OF CONSTITUTIONAL RIGHTS
(FIFTH AMENDMENT RIGHTS)
VIOLATION OF 14TH AMENDMENT RIGHTS
(SECTION 1)
VIOLATION OF EQUAL PROTECTION
Rest attach is history of public corruption in detail so understand each and
every things stated very carefully.
Most of American court and judges are fully corrupted not all but most of
them so Supreme Court duty to stop forms of public corruption. Due to
ongoing public corruption in courts innocent public are suffering.

38

Supreme Court highest court of the land can not allow public corruption,
corrupt court and corrupt judges and corrupt DOJ to continue.
Petitioners are not only victim of public corruption petitioner Mr. Narayan
has unlimited number of times victim of public corruption in California Court
and in US Court.
Petitioners have knowledge following who are also victim of public
corruption in Sacramento Superior Court.
1. Ali vs. I Design Anwar Ali same court accepted amended response
complaint after 12 months or so on cross compliant filed after 18 months late
to name so on.
2.

Alma Thomas 16 year’s old Filipino boy died in Methodist Hospital

entire jury hand picked were from same hospital 16 years old boy died.
3. Kusum vs. Eskaton workers compensation case. Kusum was compel to
use strangers medical report for Qualified Medical evaluation,, after 12 years
later granted Eskaton’s motion to deny injury, Kusum not allowed to take
deposition, Kusum not allowed to bring witness, Kusum not allowed to obtain
new QME with full injured body parts, denied to obtain supplement medical
report so on.
4.

Kusum vs. California illegal U turn was never provide Fiji/Hindi

translator but Punjabi which is not her language Kusum dose not speak,
write, reads or understands Punjabi language.
Many more are there and can be provide if Supreme Court needs it’s our
courts are so corrupted.

DATED: November 19, 2018

Respectfully submitted,

S/ PRAKASH NARAYAN
SI PAYAL NARAYAN
V

Petitioners/ Appellant
Forma Pauperis

39

